N

> ~ <.

No. 20-3405
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
RICHARDS. GLENN, JR.,

)
)
)
)
)
) .
)
)
)
)
)

Petitioner-Appellant

v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

FILED
Sep 10, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: NORRIS, GRIFFIN, and LARSEN, Circuit Judges.

Richard S. Glenn, Jr. petitions for rehearing en banc of this court’s order entered on August
4, 2020, denying his application for a certificate of appealability. The petition was initially referred
to this panel, on which the original deciding judge does not sit. After review of the petition, this
panel issued an order announcing its conclusion that the original application was properly denied.
The petition was then circulated to all active members of the court, none of whom requested a
vote on the suggestion for an en banc rehearing. Pursuant to established court procedures, the
panel now denies the petition for rehearing en banc.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

i____

No. 20-3405

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

RICHARD S. GLENN, JR.,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Aug 04, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: DONALD, Circuit Judge.
Richard S. Glenn, Jr., a pro se federal prisoner, appeals the district court’s order denying
his motion to vacate, set aside, or correct his sentence filed under 28 U.S.C. § 2255. Glenn has
filed an application for a certificate of appealability (“COA”). See Fed. R. App. P. 22(b)(1).
In 2018, Glenn pleaded guilty, pursuant to a Federal Rule of Criminal Procedure
11(c)(1)(C) plea agreement, to two counts of aiding and abetting Hobbs Act robbery, in violation
of 18 U.S.C. §§ 1951(a) and 2; two counts of Hobbs Act Robbery, in violation of § 1951(a); one
count of bank robbery, in violation of 18 U.S.C. § 2113(a); and one count of aiding and abetting
brandishing a firearm during a crime of violence, in violation of 18 U.S.C. § 924(c)(l)(A)(ii) and
2. As part of the plea agreement, the parties agreed “that the appropriate disposition of this case
is for [Glenn] to receive a sentence that includes a specific sentence of 324 months [of]
imprisonment.” The plea agreement also included an appeal-waivefprovision, pursuant to which
Glenn agreed to waive his rights to appeal and. collaterally attack his convictions and sentence,
except that he reserved the right to appeal any custodial sentence in excess of 324 months and
claims of ineffective assistance of counsel or prosecutorial misconduct.

The district court

sentenced Glenn to a total of 324 months of imprisonment, and Glenn did not appeal.

No. 20-3405
-2-

In August 2019, Glenn filed a § 2255 motion, in which he argued that: (1) trial counsel
rendered ineffective assistance by ignoring his instructions to file an appeal; and (2) his sentence
was wrongly enhanced on the basis of the Sentencing Commission s commentary, in violation of
United States v. Havis, 927 F.3d 382 (6th Cir. 2019) (en banc) (per curiam). The government
opposed Glenn’s § 2255 motion, and Glenn did not file a reply. The district court denied Glenn’s
§ 2255 motion without conducting a hearing, concluding that both claims lacked merit. The district
court alternatively concluded that Glenn’s sentencing claim was both barred by the appellatewaiver provision in the plea agreement and non-cognizable in a § 2255 motion. The district court
also declined to issue a CO A. This appeal followed.
In his COA application, Glenn argues that the district court should have held an evidentiary
hearing on his ineffective-assistance-of-counsel claim. A COA may be issued “only if the
applicant has made a substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2); Miller-El v. Cockrell, 537 U.S. 322, 336 (2003). In order to be entitled to a COA,
the movant must demonstrate “that jurists of reason could disagree with the district court s
resolution of his constitutional claims or that jurists could conclude that the issues presented are
adequate to deserve encouragement to proceed further.” Miller-El, 537 U.S. at 327.
Glenn argued that trial counsel was ineffective for ignoring his instructions to file an
appeal. To prevail on an ineffective-assistance claim, a petitioner must establish that counsel’s
performance was deficient and that he suffered prejudice as a result. Strickland v. Washington,
466 U.S. 668, 687 (1984). In Roe v. Flores-Ortega, 528 U.S. 470 (2000), the Supreme Court held
that a defendant may establish that counsel performed deficiently in failing to file a direct appeal
under two circumstances. See id. at 477-81. First, “an attorney performs deficiently if, after
consulting with his client, he ‘disregards specific instructions’ from his client ‘to file a notice of
appeal’—‘a purely ministerial task.’”

Pola v. United States, 778 F.3d 525, 533 (6th Cir.

2015) (quoting Flores-Ortega, 528 U.S. at 477). Second, an attorney performs deficiently if he
fails to consult with his client regarding the advisability of filing an appeal if either (1) a rational
defendant would want to appeal,’ or (2) the ‘defendant reasonably demonstrated to counsel that he

• A.

No. 20-3405
-3was interested in appealing.’” Id. (quoting Flores-Ortega, 528 U.S. at 480).

If this Court

“determine[s] that the attorney failed to file a notice of appeal either after the client’s express
instructions or because there is no reasonable strategic reason not to appeal,” id., then prejudice is
established upon a defendant’s showing “that, but for counsel’s deficient conduct, he would have
appealed,” Flores-Ortega, 528 U.S. at 486.
The district court concluded that Glenn failed to persuade it that he instructed his attorney
to file an appeal. Glenn submitted a declaration alongside his § 2255 motion, which was signed
under penalty of perjury and therefore had “the same force and effect as an affidavit.” See Williams
v. Browman, 981 F.2d 901, 905 (6th Cir. 1992); see also 28 U.S.C. § 1746. In his sworn
declaration, Glenn averred that immediately following his sentencing hearing, he instructed his
attorney, Assistant Federal Defender Charles Fleming, to file an appeal claiming that the
government had withdrawn an earlier plea agreement and that his attorney did not communicate
with him in a meaningful manner. The government, on the other hand, submitted an affidavit from
Attorney Fleming, who averred that he “spoke with Mr. Glenn about his appeal rights”
immediately after the June 26, 2018 sentencing hearing, at which time Mr. Glenn stated that he
did not wish to appeal his case.” Fleming averred that Glenn’s decision not to appeal was
understandable “because the sentence he received, was the sentence agreed upon in the plea
agreement.” Fleming further averred that he sent Glenn a letter the following day

June 27,

2018—“confirming [their] discussion after the sentencing hearing[] and indicating that as a result
[Fleming] would not be filing an appeal.”
Glenn argues that the district court erroneously credited Fleming’s affidavit over his sworn
declaration and should have held an evidentiary hearing to resolve questions of credibility. Indeed,
this Court has held that “[although district courts are usually in the best position to determine
whether witnesses are credible, . .. ‘resolution on the basis of affidavits can rarely be conclusive
... .’” Pola, 778 F.3d at 535 (quoting Raines v. United States, 423 F.2d 526, 530 (4th Cir. 1970)).
But the record before the district court was not limited to Glenn and Fleming’s dueling affidavits.
The government also filed a copy of the June 27, 2018 letter that Fleming referenced in his

No. 20-3405
-4-

affidavit.

In that letter, Fleming informed Glenn that “[b]ased on our discussion after the

sentencing hearing, I will not be filing a notice of appeal,” thus confirming the substance of
Fleming’s affidavit. Although Glenn expresses skepticism in his COA application regarding the
authenticity of the June 27, 2018 letter, he did not raise that concern before the district court via a
reply to the government’s response to his § 2255 motion. Therefore, because the record before the
district court conclusively demonstrated that Glenn was not entitled to relief, reasonable jurists
could not debate the district court’s decision to deny Glenn’s ineffective-assistance-of-counsel
claim without conducting an evidentiary hearing.

See Rule 4(b), Rules Governing § 2255

Proceedings; see also Arredondo v. United States, 178 F.3d 778, 782 (6th Cir. 1999).
Accordingly, Glenn’s COA application is DENIED.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: l:17-cr-00413-JG Doc #: 81 Filed: 03/09/20 1 of 8. PagelD #: 617

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO

UNITED STATES OF AMERICA,
Plaintiff,

CASE NO. 1:17-cr-00413
ORDER
[Resolving Doc. 72]

vs.
RICHARD S. GLENN, JR., '
Defendant.

JAMES S. GWIN, UNITED STATES DISTRICT JUDGE:
On February 7, 2018, Defendant Richard Glenn, Jr. pleaded guilty to Hobbs Act
\ robbery, bank robbery, and brandishing a firearm during a crime of violence.1 On June 27,

2018, the Court sentenced him to 324 months in prison.2 Defendant Glenn now moves to
vacate, set aside, or correct his sentence under 28 U.S.C. § 2255.3
On September 13, 2019, the Government filed a motion to dismiss Defendant's
motion.4 This Court denied the motion to dismiss and ordered the Government to respond
to the merits of Defendant's claim.5
The Government opposes Glenn's § 2255 motion.6 Glenn has not replied.
For the reasons stated below, the Court DENIES Glenn's motion.

1
2
3
4
5

Doc.
Doc.
Doc.
Doc.
Doc.

40.
52.
72.
75.
77.

6 Doc. 79.

Case: l:17-cr-00413-JG Doc#: 81 Filed: 03/09/20 2 of 8. PagelD#:618
Case No. 1:17-cr-00413
Gwin, J.
I.

Background7
On August 9, 2017, Glenn robbed a Walgreens store in South Euclid, Ohio. He

brandished a revolver and took cash.
On August 17, 2017, Glenn robbed a different Euclid Walgreens store. He once
against brandished a revolver and took cash.
On August 23, 2017, Glenn robbed a Garfield Heights, Ohio U.S. Bank branch.
Glenn was not armed but handed the teller two demand notes. One note said: "No locks
on doors," while the other said: "Hand over the money!! No Dye No Tracers quick and
quiet or I'll shoot." Glenn took cash.
On August 29, 2017, Glenn robbed a Cleveland Dollar General, once again
brandishing a firearm and taking cash.
Finally, on August 31, 2017, Glenn robbed a Bedford Heights, Ohio, A & M Food
Mart. Glenn used a pistol and took cash.
On February 7, 2018, Glenn pleaded guilty to Hobbs Act Robbery, bank robbery,
and brandishing a firearm during and in relation to a crime of violence.8 As part of the plea
agreement, Glenn waived his right to appeal most claims, preserving his right to challenge
on appeal a sentence imposed in excess of 324 months, ineffective assistance of counsel,
or prosecutorial misconduct.9
Glenn entered, and the Court accepted, a Rule 11(c)(1)(C) plea agreement. In that
agreement, "the parties agree that the appropriate disposition of this case is for Defendant

7 The facts in this section are taken from Glenn's plea agreement. Glenn admitted the facts in the agreement
and affirmed their accuracy during his plea colloquy. Docs. 40 and 61.
8 Doc. 40.
9 Id. at 7.

-2-

Case: l:17-cr-00413-JG Doc#: 81 Filed: 03/09/20 3 of 8. PagelD#:619
Case No. 1:17-cr-00413
Gwin, J.

to receive a sentence that includes a specific sentence of 324 months imprisonment. n 10
On June 27, 2018, this Court sentenced Glenn to 324-months imprisonment and
five years of supervised release, plus restitution and an assessment.11
At the sentencing hearing, the Court requested that Assistant Federal Public
Defendant Charles Fleming discuss with Glenn his right to appeal and assist in timely filing
an appeal if Glenn decided to do so.12 Fleming agreed to do so.13
II.

Discussion

Glenn brings two claims. First, Glenn argues that his counsel was ineffective for
failing to file an appeal. Second, Glenn says that his sentence was wrongly enhanced on
the basis of the Sentencing Guidelines commentary. The Court considers these claims in
order.
A. Glenn's Counsel Was Not Ineffective.

Glenn says that he requested that his counsel file a notice of appeal on his behalf,
and says that his counsel failed to file the appeal.14 He claims that due to this omission,
counsel was ineffective.
To prevail on an ineffective assistance of counsel claim, the defendant must prove
that his counsel's performance was deficient, and that the defendant was prejudiced by
such performance.15
To establish counsel's deficient performance, Glenn must show that the

10 Doc. 40 at 5.
11 Doc. 52.
12 Doc. 61 at 13.
13 id.
14 Doc. 72 at 4.
15 Strickland v. Washington, 466 U.S. 668, 688-691 (1984).

-3-

Case: l:17-cr-00413-JG Doc#: 81 Filed: 03/09/20 4 of 8. PagelD#:620
Case No. 1:17-cr-004l3
Gwin, J.
representation fell "below an objective standard of reasonableness,

//16

The Court's scrutiny

of counsel's performance is highly deferential, and "counsel is strongly presumed to have
rendered adequate assistance. //17
Glenn argues, correctly, that "an attorney who fails to file an appeal that a criminal
defendant explicitly requests has, as a matter of law, provided ineffective assistance of
counsel that entitles the defendants to relief in the form of a delayed appeal.

//18

In this case, however, Glenn does not persuade that he requested attorney Fleming
to file an appeal.
After the Court sentenced Glenn, and in Glenn's presence, the Court asked whether
the defense had any objections to the sentence. The defense responded that Mr. Glenn
and Attorney Fleming, had "no objection."
Glenn filed a declaration with his habeas petition claiming that immediately after
sentencing he asked counsel to file an appeal claiming that the government withdrew an
earlier plea agreement and that counsel failed to communicate with him in a meaningful
manner.19
Fleming responds that Glenn "stated that he did not wish to appeal his case."20 In
support of his position, Fleming offers an affidavit stating as much as well as a letter, dated
the date of Glenn's sentencing.21 The letter states: "Based on our discussion after the

16 Wise v. United States, No. 5:19 CV 463, 2019 WL 3068252, at *2 (N.D. Ohio July 11, 2019).
17 id. (internal quotations omitted).
18 Campbell v. U.S., 686 F.3d 353, 360 (6th Cir. 2012).
19 Doc. 72-1 at 3.
20 Doc. 79-1 at 1.
21 Doc. 79-1.

-4-

Case: l:17-cr-00413-JG Doc#: 81 Filed: 03/09/20 5 of 8. PagelD #: 621
Case No. 1:17-cr-00413
Gwin, J.
sentencing hearing, I will not be filing a notice of appeal."22
The Court credits Fleming's account of events, especially given his
contemporaneous letter to his client confirming Glenn's decision to forgo an appeal. In
addition, at sentencing Glenn never raised any objection when the Court asked.
In light of the evidence before the Court, Glenn has not shown a perse violation by
demonstrating that he requested an appeal. Additionally, the Court finds that Glenn is
unable to satisfy the first prong of the Strickland standard. It was not unreasonable for
Fleming to not file an appeal given Glenn's representation that he did not want his counsel
to do so.23
Glenn's claim regarding ineffective assistance is DENIED.
The Court also denies Glenn's request for a hearing on this matter. Although in
Campbell, the case cited by Glenn, the Sixth Circuit remanded the matter to the district
court for an evidentiary hearing regarding the defendant's request for an appeal, that case is
distinguishable from the present matter.24 In Campbell, the record did not contain
evidence, other than the defendant's assertion, regarding his request that his attorney file
an appeal.25 In this case, both parties have submitted evidence in support of their
positions. An evidentiary hearing is therefore unnecessary.
B. Glenn's Claim Regarding the Sentencing Guidelines Commentary Fails.

22 Doc. 79-2. Given Glenn's claims regarding conversations between himself and his attorney, the Court
granted the Government's request to find that the attorney-client privilege had been waived for the purpose of responding
to Glenn's claims. Doc. 80.
23 Regalado v. U.S., 334 F.3d 520, 526 (6th Cir. 2003) (holding that attorney's "testimony that he never received
an express instruction to file an appeal defeated] [defendant's] ineffective assistance of counsel claim at the first prong of
the Strickland analysis").
24 Campbell, 686 F.3d at 360.
25 Id. '

-5-

Case: l:17-cr-00413-JG Doc#: 81 Filed: 03/09/20 6 of 8. .PagelD#: 622
Case No. 1:17-cr-00413
Gwin, J.
Glenn's second claim is that after the Sixth Circuit's holding in U.S. v. HavisWxs
sentence enhancement for brandishing a firearm should be overturned.26 Glenn argues
that Havis held that the Sentencing Guidelines commentary has no independent legal
force. He says that because the commentary defines "brandished" and "threat of death,"
and the Court can no longer refer to the guidelines, these terms are undefined and
therefore unconstitutionally vague. He says his sentence enhancements should be
overturned.
First, it is likely that Glenn's plea agreement waived this claim when he gave up
most appeal rights, including appeals of any sentence at or below the 324-months
imprisonment the Court eventually sentenced him to.27
Second, as the Government points out, Glenn likely cannot bring this claim under
the auspices of a 28 U.S.C. § 2255 motion. Claims under 28 U.S.C. § 2255 are cognizable
only if they assert a constitutional or jurisdictional error or involve a complete miscarriage
of justice.28 The Sixth Circuit has held that sentencing guideline claims that challenge only
the legal process used to sentence the defendant and not the lawfulness of the sentence are
not eligible for 28 U.S.C. § 2255 relief.29
In any event, Glenn's claim fails on the merits. Glenn argues that after Havis, the
Court's enhancement of his sentence for "brandishing" a firearm and making a "threat of
death" are invalid. According to Glenn, because the Sentencing Guidelines commentary
defines both "brandishing" and "threat of death," but has no independent legal force itself,

26 Doc. 72 at 7-9.
27 Doc. 40 at 7.
28 Snider v. U.S., 908 F.3d 183, 189 (6th Cir. 2018).
29 id. at 190-191.

-6-

Case: l:17-cr-00413-JG Doc#: 81 Filed: 03/09/20 7 of 8. PagelD#:623
Case No. 1:17-cr-00413

Gwin, J.
his enhancement based on those factors was erroneous.30
Glenn misreads Havis. In Havis, the Sixth Circuit invalidated the Sentencing
Guidelines commentary relating to what constitutes a "controlled substance offense"
because the commentary attempted to add attempt crimes to the list of offenses when the
guideline itself said nothing about attempt crimes.31 The decision did not invalidate the
entirety of the Sentencing Guidelines commentary or hold that the Court may not consider
commentary in sentencing decisions.
Glenn's sentencing differs from the sentencing at issue in Havis. The Court
enhanced Glenn's sentence based on the Sentencing Guidelines, rather than the
commentary, which explicitly contemplate enhancement "if a firearm was brandished or
possessed"32 and "if a threat of death was made. n 33 Glenn is correct that the commentary
offers definitions of "brandished" and "a threat of death," but the commentary does not
mandate enhancement for those conditions; the guidelines do.
The definitions are therefore not the type of commentary that Havis prohibits. Nor
does the fact that the terms are defined in the commentary rather than in the guidelines
make them perse unconstitutionally vague.34
The Court DENIES Glenn's second claim regarding his sentence enhancements.
III. Conclusion

30 Doc. 72 at 7-9.
3' U.S. v. Havis, 927 F.3d 382 (6th Cir. 2019).
32 USSG § 2B3.1(b)(2)(C).
33 USSG § 2B3.1(b)(2)(F).
34 The Sixth Circuit denied a vagueness challenge to a sentencing guideline holding that "nothing about this
statutory scheme is so vague that it fails to give ordinary people fair notice of the conduct it punishes, or so standardless
that it invites arbitrary enforcement." U.S. v. Shepard, 658 F. App'x. 260, 267 (6th Cir. 2016). Glenn argues that
guideline is vague because it relies on the commentary for its definition. This does not meet the standard relied upon by
the Sixth Circuit in Shepard.

-7-

Case: l:17-cr-00413-JG Doc #: 81 Filed: 03/09/20 8 of 8. PagelD #: 624
Case No. 1:17-cr-00413
Gwin, J.
The Court DENIES Glenn's motion to vacate, set aside, or correct his sentence under
28 U.S.C. § 2255. There is no basis upon which to issue a certificate of appealability.35
IT IS SO ORDERED.

Dated: March 9, 2019

s/
James S. Gwin
JAMES S. GWIN
UNITED STATES DISTRICT JUDGE

35 28 U.S.C. 2253(c); Fed. R. App. P. 22(b).

-8-

